Ackourey a Tue PC, Paul P, Ackourey, Esq, - Attorney ILD. 38506
Stephen R. Turel, Jr., Esq. ~ D.

Susie ae jephen R. Turel, Jr., Esq. ~ Attorney I.D. 207500

Phone: (570)836-3600

Facsimile: (570)836-0116

THE SUPREME COURT OF THE UNITED STATES

 

UNITED STATES OF AMERICA
Respondent NO.:

vs.

FREDRICK BROWN
Petitioner

 

 

MOTION TO PROCEED IN FORMA PAUPERIS

AND NOW comes the Petitioner, Fredrick Brown, by and through counsel, Paul P.
Ackourey, Esquire and files this Motion averring the following in support thereof:

1. Petitioner is Fredrick Brown, an adult and competent individual currently
incarcerated at the Pennsylvania State Correctional Institute at Rockview.

2. Paul P. Ackourey, Esquire has been appointed as Counsel for Petitioner by the
United States District Court for the Middle District of Pennsylvania, pursuant to the Criminal
Justice Act, 18 U.S.C. §3006. Attached hereto, made part hereof and marked Exhibit A is a true
and correct copy of a Notice of Appointment.

3. Petitioner has been continuously incarcerated throughout the course of the

prosecution of the instant case.
4, Petitioner has previously been granted In Forma Pauperis status in the Federal
District Court as well as the United States Court of Appeals for the 3" Circuit.

55 Petitioner is indigent and without funds to proceed on appeal.

WHEREFORE, Petitioner, through Counsel respectfully requests this Honorable Court

to allow for him to proceed In Forma Pauperis in the above matter.

RESPECTFULLY SUBMITTED:
ACKO! L, P.C.

  

PAUL P. ACKOUREY, ESQUIRE
9 Marion Street

Tunkhannock, PA 18657
(570)836-3600 — Telephone
(570)836-0116 — Facsimile
ackoureyandturel@gmail.com
ATTORNEY FOR DEFENDANT
